Table 1
List of Reports: Audit and Evaluations

  Audit/
Evaluation                          Title                          Date Issued
 Number
             Review of the Commission’s Processes for Selecting
   470       Investment Advisers and Investment Companies for      Nov 19, 2009
                               Examination

   477         Management Alert - Data Security Vulnerabilities     Mar 1, 2010


             Management and Oversight of Interagency Acquisition
   460                                                             Mar 26, 2010
                         Agreements at the SEC

               Assessment of the SEC Information Technology
   466                                                             Mar 26, 2010
                           Investment Process


   472             2009 FISMA Executive Summary Report             Mar 26, 2010



   475              Evaluation of the SEC Privacy Program          Mar 26, 2010



   476            Evaluation of the SEC Encryption Program         Mar 26, 2010



   474            Assessment of the SEC’s Bounty Program           Mar 29, 2010
Table 2
Reports Issued With Costs Questioned
or Funds Put To Better Use (Including Disallowed Costs)
                                                             Number of
                                                              Reports    Value
A. Reports Issued Prior To This Period

 For which no management decision had been made on
 any issue at the commencement of the reporting period           3        $416,550
 For which some decisions had been made on some
 issues at the commencement of the reporting period              1        $129,336
B. Reports Issued During This Period                             1       $6,945,831

                            Total of Categories A and B          5       $7,491,717
C. For which final management decisions were made
during this period                                               2        $515,574
D. For which no management decisions were made during
this period                                                      3       $6,976,143
E. For which management decisions were made on some
issues during this period                                        0               $0

                          Total of Catergories C, D, and E       5       $7,491,717
Table 3
Reports With Recommendations on Which
Corrective Action Has Not Been Completed

                                      Recommendations Open 180 Days Or More

Audit/Inspection/Evaluation/ or
                                  Issue Date   Summary of Recommendation
Investigation # and Title
412 - Oversight of the Public
Company Accounting Oversight      9/28/2006    Develop procedures for several PCAOB oversight issues.
Board (PCAOB)

428 - Electronic Documents
                                  7/25/2007    Issue program guidance.
Program

                                               Develop written procedures for loading data work from the regional offices.

                                               *Consider a larger forensics lab.

430 - Contract Ratifications      9/25/2007    *Reevaluate procurement in the regional offices.

                                               Develop procurement procedures and provide training for the regional offices.

433 - Corporation Finance                      *Develop a centralized tracking system for Divisions of Enforcement and Corporation
                                  9/30/2008
Referrals                                      Finance staff regarding non-delinquent filer referrals.

438 - Self-Regulatory                          Enhance the Self-Regulatory Organization Rule Tracking System by identifying comment
Organization Rule Filing          3/31/2008    letters, improving speed, retaining proposed rule changes in inbox, and ensuring upload
Process                                        of all comment letters.

439 - Student Loan Program        3/27/2008    In consultation with the Union, develop a detailed distribution plan.

442 - Enterprise Architecture                  Develop EA metrics to assess or track the SEC’s performance in implementing, and
                                  3/31/2008
(EA) Assessment                                tracking performance of, the SEC's Federal EA program.

                                               Through the Information Technology Capital Planning and Investment Control Board,
                                               require periodic reports on EA progress overall, including specifically how EA can help to
                                               make strategic purchasing decisions.

446A - SEC's Oversight of Bear
                                               Require compliance with existing rule requiring external auditors to review the CSE firms'
Stearns and Related Entities:
                                  9/25/2008    risk management control systems, or seek Commission approval for deviation from this
Consolidated-Supervised Entity
                                               requirement.
(CSE) Program

                                               *Develop internal guidelines for timely Corporation Finance (CF) filing reviews, and track
                                               and monitor compliance with these guidelines.

                                               Establish a policy outlining when firms are expected to respond substantively to issues
                                               raised in CF comment letters, and track and monitor compliance with this policy.

446B - SEC's Oversight of Bear
Stearns and Related Entities:
                                  9/25/2008    Establish a timeframe to update and finalize rules 17h-1T and 17h-2T within six months.
Broker-Dealer Risk Assessment
(BDRA) Program

                                               Ensure the BDRA system includes financial information, staff notes and other written
                                               documentation and is used to generate management reports.

                                               Resolve technological problems with the BDRA system.

                                               *Keep an account of prohibited gifts that are returned of which the Ethics Office has
448 - 2008 Sensitive Payments     3/27/2009
                                               knowledge.

450 - Practices Related to
Naked Short Selling Complaints     3/8/2009    Develop written in-depth triage analysis steps for naked short selling complaints.
and Referrals

                                               Revise written guidance to Enforcement Complaint Center (ECC) staff to ensure proper
                                               scrutiny and referral of naked short selling complaints.
Audit/Inspection/Evaluation/ or
                                   Issue Date   Summary of Recommendation
Investigation # and Title
                                                Add naked short selling to categories of complaints on public webpage and develop
                                                tailored online complaint form.

                                                Improve analytical capabilities of the ECC's e-mail complaint system.

                                                Improve CTR database to include additional information about and better track
                                                complaints.

                                                Ensure the Office of Internet Enforcement updates and resumes using previous complaint
                                                referral tracking system or develops a new system.

452 - Enforcement's
                                    2/3/2009    Ensure staff comply with procedures and consider payment plans and partial waivers.
Disgorgement Waivers

                                                Ensure the review of financial information for accuracy prior to recommending a
                                                disgorgement waiver.

                                                Clarify policies and procedures regarding when supporting documentation should be
                                                obtained and retained.

                                                Ensure sworn financial statements from defendants/respondents who request
                                                disgorgement waivers are retained, signed and notarized.

                                                Ensure checklist for disgorgement waiver cases is retained and signed by supervisor.

                                                Ensure documentation is retained in case files and compliance with procedures for
                                                obtaining tax returns.

                                                Ensure public database searches are performed for all defendants/respondents.

                                                Ensure staff attorneys receive periodic formal training in disgorgement waiver process.


454 - The Division of
Enforcement's Draft Policies
and Procedures Governing the
Selection of Receivers, Fund                    Revise policy on the selection of receivers and independent consultants to address actual
                                   9/16/2008
Administrators, Independent                     and apparent conflicts of interest and provide guidance to staff.
Distribution Consultants, Tax
Administrators and
Independent Consultants

                                                Determine whether any time limit should be placed on a request for conflict of interest or
                                                background information, or whether that information should be requested for more than
                                                five years.

                                                Include in the attachment to the policy the applicant's certification that the information
                                                provided is complete and truthful and that the applicant understands the consequences
                                                for providing false information.

                                                Require all SEC attorneys to certify annually that they are active bar members and to
455 - Attorney Annual
                                    9/9/2008    acknowledge that their failure to maintain active bar membership may result in referral to
Certification of Bar Membership
                                                the appropriate authorities and/or disciplinary action.

456 - Public Transportation
                                   3/27/2009    Implement additional management controls over regional office program operations.
Benefit Program
458 - SEC Oversight of
Nationally Recognized                           Ensure that all significant issues identified in the application review process are resolved
                                   8/27/2009
Statistical Rating Organizations                before recommending that a credit rating agency be registered as an NRSRO.
(NRSROs)

                                                Evaluate whether action should be taken regarding the credit rating agency that was
                                                granted NRSRO registration despite numerous significant problems identified with its
                                                application.

                                                Ensure that all pending issues identified during the application process involving the credit
                                                rating agencies that the SEC approved as NRSROs are resolved within six months of the
                                                date of this OIG report.
Audit/Inspection/Evaluation/ or
                                  Issue Date   Summary of Recommendation
Investigation # and Title
                                               Develop measures for determining whether subscriber fees charged by the credit rating
                                               agencies are reasonable.

                                               Request guidance from the Office of General Counsel regarding the types of deficiencies
                                               that should prompt the Division of Trading and Markets to seek consent from the
                                               applicant to waive the 90-day statutory time period for granting registration as an NRSRO
                                               or recommend instituting procedures to determine whether registration should be denied.

                                               Take appropriate actions to inform NRSROs about the Commission's expectations
                                               regarding their compliance officers.

                                               Ensure that Commission orders are sought in response to requests from NRSROs for
                                               extensions of time when required by statute or Commission rules.

                                               Ensure that credit rating agencies applying for designation as NRSROs and firms that
                                               have registered as NRSROs comply with the Commission's rules and requirements
                                               regarding filing and certification of financial information.

                                               Review the OIG findings on conducting examinations before issuing orders approving
                                               applications and, as appropriate, seek legislative authority to conduct examinations as
                                               part of the NRSRO application process.

                                               Include NRSROs in the Office of Compliance Inspections and Examinations' (OCIE's) pilot
                                               monitoring program.

                                               Obtain an additional review of the draft OCIE NRSRO examination module by an expert in
                                               credit rating and NRSRO matters.

                                               Review the OIG findings concerning PCAOB oversight of NRSRO auditors and, as
                                               appropriate, seek legislative authority to provide the PCAOB with oversight over audits of
                                               NRSROs.

                                               Perform examination work to determine whether the quality of credit ratings is being
                                               adversely affected by NRSROs providing consulting and advisory services for issuers,
                                               underwriters or obligors that have paid the NRSROs for credit ratings.

                                               Assess the impact of NRSROs providing consulting and advisory services on the quality
                                               of credit ratings and how to best minimize the harmful effects without unduly limiting
                                               competition among the NRSROs.

                                               Review the OIG findings on monitoring of credit ratings and direct the recommendation of
                                               appropriate rules to implement a comprehensive credit rating monitoring requirement for
                                               NRSROs.

                                               Perform examination work into whether credit rating analysts face undue influence and
                                               the effects of such undue influence on the credit ratings issued by the NRSROs.

                                               Assess the effects of undue influence on the quality of credit ratings and the potential
                                               benefits of a credit analyst rotation requirement.

                                               Review the OIG findings on credit ratings disclosures and, as appropriate, direct the
                                               recommendation of additional rule amendments to enhance the disclosures surrounding
                                               the credit ratings process.

                                               Conduct examinations to evaluate whether the revolving door problem is negatively
                                               impacting the quality of credit ratings.

                                               Assess the problems presented by the revolving door and, if appropriate, recommend
                                               rules to establish requirements to address the revolving door issue and meet with the
                                               Office of International Affairs periodically.

                                               Review the OIG findings on the Rule 17g-5 information disclosure program and
                                               Regulation FD and, as appropriate, direct the assessment of the potential effects on
                                               competition in the credit rating industry of the re-proposed amendments and recommend
                                               rule changes, if appropriate.

                                               Review the OIG findings on forum shopping for credit ratings and direct the
                                               recommendation of rules designed to reduce the potential harmful effects on the quality of
                                               credit ratings caused by forum shopping.
Audit/Inspection/Evaluation/ or
                                   Issue Date   Summary of Recommendation
Investigation # and Title
                                                Review the OIG findings on public comment on a firm's application and the status of
                                                competition and direct the incorporation of seeking and consideration of public comments
                                                into the SEC's NRSRO oversight process.

                                                Incorporate the additional concepts identified by the OIG' s review into the Commission's
                                                annual report to Congress on NRSROs.

459 - Regulation D Exemption                    Reintroduce the early intervention program and use it to assist in the enforcement of
                                   3/31/2009
Process                                         Regulation D.

                                                Take efforts to finalize proposed rule.

                                                *Issue formal, public guidance on how to request a waiver of disqualification under Rule
                                                505.

                                                Evaluate the Electronic Data Gathering And Retrieval (EDGAR) authentication process
                                                and make necessary changes to further streamline or simplify the process.

                                                Analyze how other agencies have implemented authentication processes and implement
                                                any appropriate procedures.

                                                *Determine further coordination with North American Securities Administrators
                                                Association staff and contact state regulatory staff when discussing and drafting proposed
                                                Regulation D rule changes.

461 - Review of the
Commission's Restacking            3/31/2009    Conduct another survey of staff after the restacking process has been completed.
Project

                                                Conduct appropriate analysis and complete and submit an Exhibit 300 to the Office of
                                                Management and Budget (OMB).

                                                Develop and adopt policies and procedures for investments in space consistent with OMB
                                                guidance.

464 - Notification to the OIG of
Decisions on Disciplinary
Actions and Settlement             1/23/2009    Provide the OIG with three business days notice prior to decisions on disciplinary action.
Agreements Involving Subjects
of OIG Investigations


                                                Provide the OIG with five business days notice prior to executing settlement agreements.


465 - Review of the SEC's                       Ensure that accurate searches are made for responsive information and, in the event of a
Compliance with the Freedom        9/25/2009    denial to disclose information, documented evidence is provided to certify there was a
of Information Act (FOIA)                       document-by-document review to segregate responsive records.


                                                Provide guidelines or written policies and procedures for all FOIA-related staff that
                                                specifically address the concerns raised in the OIG review.


                                                Ensure that sufficient legal expertise is available to the FOIA/Privacy Act Operations staff
                                                to process FOIA requests in compliance with FOIA, and to correctly apply exemptions.

                                                Collaborate with office and division managers to review position descriptions of current
                                                FOIA/Privacy Act staff and FOIA liaisons to include appropriate FOIA task descriptions
                                                and performance standards, and review pay grades to ensure they reflect actual FOIA
                                                responsibilities and duties.

                                                Ensure that training opportunities are provided to Commission staff that are appropriate
                                                for their level of FOIA responsibilities.

                                                Collaborate to produce a strategy that addresses information management obstacles
                                                hindering timely and comprehensive FOIA responses, and present the strategy to the
                                                Commission for action.
Audit/Inspection/Evaluation/ or
                                  Issue Date   Summary of Recommendation
Investigation # and Title
                                               Direct the conduct of training needed to fully implement the productive and suitable use of
                                               the FOIAXpress tracking and document management system.

467 - Program Improvements
                                               Establish formal guidance for evaluating various types of complaints (e.g. , Ponzi
Needed Within the SEC's           9/29/2009
                                               schemes) and train appropriate staff on the use of the guidance.
Division of Enforcement

                                               Ensure the SEC’s tip and complaint handling system provides for data capture of relevant
                                               information relating to the vetting process to document why a complaint was or was not
                                               acted upon and who made that determination.

                                               Require tips and complaints to be reviewed by at least two individuals experienced in the
                                               subject matter prior to deciding not to take further action.

                                               Establish guidance to require that all complaints that appear on the surface to be credible
                                               and compelling be probed further by in-depth interviews with the sources to assess the
                                               complaints' validity and to determine what issues need to be investigated.

                                               *Provide training to staff to ensure they are aware of the guidelines contained in Section
                                               3.2.5 of the Enforcement Manual and Title 17 of the Code of Federal Regulations, Section
                                               202.10, for obtaining information from media sources.

                                               Review and test the effectiveness of Enforcement's policies and procedures annually with
                                               regard to its new tip and complaint handling system, and modify these policies and
                                               procedures when needed to ensure adherence an adequacy.

                                               *Establish procedures to ensure that investigations are assigned to teams where at least
                                               one individual on the team has specific and sufficient knowledge of the subject matter,
                                               and the team has access to at least one additional individual who also has such expertise
                                               or knowledge.

                                               Train staff on what resources and information are available from the national specialized
                                               units and when and how assistance from these units should be requested.

                                               *Require that planning memoranda be prepared during an investigation, the plan includes
                                               a section identifying what type of expertise or assistance is needed from others, and the
                                               plan be reviewed and approved by senior Enforcement personnel.

                                               *Establish policies and procedures or training mechanisms to ensure staff have an
                                               understanding of what types of information should be validated during investigations with
                                               independent parties.

                                               Include in complaint handling guidance proper procedures for ensuring complaints
                                               received are properly vetted, even if an investigation is pending closure.

                                               *Implement a process to periodically remind staff of their responsibilities regarding
                                               impartiality in the performance of official duties and instruct staff where to find additional
                                               information on impartiality.

                                               Establish or utilize an existing working group to analyze the OIG survey information
                                               regarding staff concerns over communication of program priorities and recommend
                                               improvements to the Enforcement Director.

                                               Establish or utilize an existing working group to analyze the OIG survey information
                                               regarding staff concerns over case handling procedures within Enforcement and
                                               recommend improvements to the Enforcement Director.

                                               Establish or utilize an existing working group to analyze the OIG survey information
                                               regarding staff concerns over working relationships within Enforcement and recommend
                                               improvements to the Enforcement Director.

468 - Review and Analysis of
the Office of Compliance
                                               Provide all examiners access to relevant industry publications (i.e. , MAR/Hedge-type
Inspections and Examina-tions
                                  9/29/2009    publications) and third-party database subscriptions sufficient to develop examination
(OCIE) Examinations of Bernard
                                               leads and stay current with industry trends.
L. Madoff Investment Securities
LLC
Audit/Inspection/Evaluation/ or
                                  Issue Date   Summary of Recommendation
Investigation # and Title
                                               Establish a protocol for searching and screening news articles and information from
                                               relevant industry sources that may indicate securities law violations at broker-dealers and
                                               investment advisers.

                                               Establish a protocol that explains how to identify red flags and potential violations of
                                               securities law based on an evaluation of information found in news reports and relevant
                                               industry sources.

                                               Review and test annually the effectiveness of OCIE policies and procedures with regard
                                               to its tip and complaint collection system, and modify these policies and procedures when
                                               needed.
                                               Ensure that tips and complaints reviewed by OCIE that appear on the surface to be
                                               credible and compelling are probed further by in-depth interviews with the sources to
                                               assess their validity and to determine if there are other issues that need to be
                                               investigated.

                                               Ensure that all OCIE-related tips and/or complaints that are not vetted within 30 days of
                                               receipt are brought to the attention of the OCIE Director with an explanation for the delay.

                                               Preserve all potentially relevant information received from a tip or complaint source as a
                                               complete unit and augment with relevant information that may be provided in subsequent
                                               submissions.

                                               Augment OCIE's policies and procedures related to the use of scope memoranda to
                                               better reflect particular consideration given to information collected as the result of tips
                                               and complaints that lead to cause examinations.

                                               After examination scoping provisions have been approved, along with all other elements
                                               of the planning memorandum, subject the planning memorandum to concurring review by
                                               an unaffiliated OCIE associate or assistant director.

                                               After the planning memorandum is first drafted, circulate it to all examination team
                                               members, and have all team members meet, in person or electronically, to discuss the
                                               examination approach and methodology.

                                               Require the examination team leader to ensure that all steps of the examination
                                               methodology, as stated in the planning memorandum, are completed, and either the team
                                               leader or the appropriate team member signs off on each step as it is completed.

                                               Document substantive interviews conducted by OCIE of registrants and third parties
                                               during OCIE’s pre-examination activities and during the course of an active examination
                                               with notes circulated to all team members.

                                               Log all examinations into an examination tracking system, and require the team leader to
                                               verify that the appropriate entry is made into the tracking system with a notation in the
                                               planning memorandum.

                                               Review and test annually the effectiveness of OCIE's policies and procedures with regard
                                               to conducting, documenting and concluding its examinations and modify the policies and
                                               procedures when needed.

                                               Ensure the focus of an examination drives the selection of the examination team and that
                                               team members are selected based upon their expertise related to such focus.

                                               Ensure that personnel with the appropriate skills and expertise are assigned to cause
                                               examinations.

                                               Assign a Branch Chief, or a similarly designated lead manager, on every substantive
                                               project, including all cause examinations with unique or discreet needs.

                                               Develop a formal plan with specific goals associated with achieving and maintaining
                                               professional designations and/or licenses by industry certification programs that are
                                               relevant to the examination activities conducted by OCIE.

                                               Develop and implement interactive exercises to be administered by OCIE training staff or
                                               an independent third party and reviewed prior to hiring new OCIE employees in order to
                                               evaluate the relevant skills necessary to perform examinations.
Audit/Inspection/Evaluation/ or
                                  Issue Date   Summary of Recommendation
Investigation # and Title
                                               Subject to the approval of the examination team leader, contact clients of a broker-dealer
                                               or investment adviser when necessary to confirm statements made by broker-dealer or
                                               investment adviser personnel.

                                               Consult with the team leader, in the course of an examination, if an examiner becomes
                                               aware of a potential securities law violation at another firm and make a referral to the
                                               appropriate personnel or agency.
                                               Give OCIE staff direct access to certain databases maintained by self-regulatory
                                               organizations or other similar agencies to allow examiners to access necessary data for
                                               verification or analysis of registrant data.
                                               Ensure that when an examination team is pulled off the examination for a project of higher
                                               priority, upon completion of that project, the examination team returns to their examination
                                               and brings the examination to a conclusion.
                                               Assign one person responsibility for tracking the progress of all cause examinations and
                                               ensure the tracking includes the number of cause examinations, the number ongoing and
                                               the number closed for each month.
                                               Indicate clearly in policies and procedures that, at the conclusion of each examination, the
                                               examination team must prepare a closing report that begins with the scope discussion
                                               from the planning memorandum, as modified by new issues arising during the course of
                                               the examination.

                                               Ensure the examination staff do not leave open any substantive issue without providing a
                                               sufficient basis for such a determination or a plan to pursue that issue at an appropriate
                                               later time.

                                               Report information deemed credible when an auditor's independence is questioned in a
                                               tip or complaint to the appropriate state board of accountancy and the PCAOB, if
                                               applicable, and consider a referral to the SEC's Enforcement Division or other
                                               government agency.
471 - Audit of the Office of
Acquisitions' Procurement and                  Develop record-keeping standard operating procedures to track procurement and
                                  9/25/2009
Contract Management                            contracting (acquisition) activities.
Functions

                                               Develop a periodic internal review process to ensure the new record-keeping standards
                                               are followed.

                                               Determine the universe of active and open contracts and the corresponding value of the
                                               contracts and reconcile this information with the Office of Financial Management's active
                                               contract list.

                                               Develop an internal process to ensure procurement data is accurately and fully reported in
                                               the Federal Procurement Data System for both SEC headquarters and regional offices.


                                               Develop an acquisition training plan to ensure compliance with Office of Federal
                                               Procurement Policy training requirements.

                                               Provide regional offices with oversight, including the proper use of Contracting Officer
                                               Technical Representatives, Inspection and Acceptance Officials, Point-of-Contact
                                               personnel and other personnel who handle procurement and contracting activities.

                                               Revise and finalize data migration plan and include key controls or steps to ensure
                                               accuracy of migrated data.

                                               Re-educate the acquisition workforce on the Federal Acquisition Regulation requirements
                                               that are related to time-and-materials and labor-hour contracts.


                                               Update SEC Regulation 10-14, Procurement Contract Administration, regarding contract
                                               closeout and ensure that it properly aligns with the Federal Acquisition Regulation.


                                               Develop an internal review process and checklist to further ensure compliance with the
                                               Federal Acquisition Regulation contract closeout procedures.
Audit/Inspection/Evaluation/ or
                                       Issue Date   Summary of Recommendation
Investigation # and Title
ROI-431 - Re-Investigation of
Claims of Preferential                              Clarify Commission's policies on the disclosure of non-public information in the context of
                                       9/30/2008
Treatment and Improper                              Enforcement investigations and conduct training of Enforcement employees.
Termination

                                                    Reassess and clarify to staff Enforcement's practice that allows outside counsel the
                                                    opportunity to communicate with those above the line attorney level on behalf of their
                                                    clients.

ROI-477 - Allegations of Perjury                    Review Commission's policies and procedures concerning employee performance files to
                                       3/17/2009
and Obstruction of Justice                          ensure they are properly protected and produced upon request.

ROI-481 - Employees' Securities
                                        3/3/2009    *Give one office primary responsibility for ensuring compliance with Rule 5.
Transactions
                                                    *Use an integrated computerized system for every facet of Rule 5 compliance.

                                                    Give serious consideration to obtaining duplicate copies of brokerage record
                                                    confirmations for each securities transaction for every SEC employee.

                                                    *Amend SEC Form 681 to require employees to certify in writing that they do not have
                                                    non-public information related to each securities transaction they conduct and report.

                                                    *Review and check SEC Form 681s against the system clearances to ensure employees
                                                    obtained clearance and the trades were timely made thereafter.

                                                    Have employee's direct supervisor review a list of all pending cases in the group over the
                                                    last year to compare against a list of all securities reported on Office of Government
                                                    Ethics (OGE) Form 450 for each employee.

                                                    Have the office primarily responsible for Rule 5 compliance conduct regular thorough spot
                                                    checks for Rule 5 compliance for randomly selected employees each quarter.

                                                    Conduct separate comprehensive and more frequent training on Rule 5, its purpose and
                                                    its requirements, for all SEC employees, supervisors and contractors.


                                                    *Compare OGE Form 450s against each employee's SEC Form 681s to ensure accuracy.


                                                    *Consider expanding staff who are required to file OGE Form 450s beyond the higher-
                                                    paying grades currently required to file.

                                                    *Establish a clear written policy on the confidentiality of Enforcement investigations and
                                                    whether and when staff can discuss their confidential investigations or matters.

ROI-502 - Allegations of                            Clarify policies on disclosure of non-public information, including what constitutes non-
Improper Disclosures and               9/30/2009    public information related to Enforcement investigations and parameters for discretionary
Assurances Given                                    release.

                                                    Clarify Commission's policies regarding under what circumstances the staff is obligated to
                                                    seek formal approval before making decisions that may bind the Commission.

                                                    This recommendation had not been closed by the end of the semiannual reporting period, although
                                   *                management had submitted corrective action and, afte+C126r the end of the reporting period, the OIG
                                                    determined that the recommendatin should be closed.
                                                    This table also includes an additional 46 recommendations for which management determined it had
                                                    completed corrective action by the end of the reporting period. Subsequent to the end of the reporting
                                                    peroid, the OIG determined that seven of thses recommendations should not be closed, and the remaining
                                                    39 recommendations are under OIG review.
TABLE 4: SUMMARY OF INVESTIGATIVE ACTIVITY

CASES                                                  NUMBER

Cases Open as of 09/30/09                                17
Cases Opened during 10/01/09 - 3/31/10                   9
Cases Closed during 10/01/09 - 3/31/10                   13
Total Open Cases as of 3/31/10                           13
Referrals to Department of Justice for Prosecution       1
Prosecutions                                             0
Convictions                                              0
Referrals to Agency for Disciplinary or Other Action     6

PRELIMINARY INQUIRIES                                  NUMBER

Inquiries Open as of 09/30/09                            78
Inquiries Opened during 10/01/09 - 3/31/10               28
Inquiries Closed during 10/01/09 - 3/31/10               35
Total Open Inquiries as of 3/31/10                       71
Referrals to Agency for Disciplinary Action              3

DISCIPLINARY ACTIONS                                   NUMBER

Removals (Including Resignations)                        1
Suspensions                                              3
Reprimands                                               2
Warnings/Other Actions                                   3
TABLE 5: SUMMARY OF COMPLAINT ACTIVITY

                         DESCRIPTION                          NUMBER

Complaints Pending Disposition at Beginning of Period            38
   Hotline Complaints Received                                  141
   Other Complaints Received                                     63
Total Complaints Received                                       204
Complaints on which a Decision was Made                         235
Complaints Awaiting Disposition at End of Period                  7

Disposition of Complaints During the Period
 Complaints Resulting in Investigations                           3
 Complaints Resulting in Inquiries                               28
 Complaints Referred to OIG Office of Audits                      6
 Complaints Referred to Other Agency Components                 123
 Complaints Referred to Other Agencies                           10
 Complaints Included in Ongoing Investigations or Inquiries       3
 Response Sent/Additional Information Requested                  50
 No Action Needed                                                14
Table 6
References to Reporting Requirements of the
Inspector General Act
The Inspector General Act of 1978, as amended, specifies reporting requirements for
semiannual reports to Congress. The requirements are listed below and indexed to the
applicable pages.



                         Inspector General Act Reporting Requirement                      Pages

   Section 4(a)(2)                 Review of Legislation and Regulations                  85-86

                                                                                          13-15,
   Section 5(a)(1)             Significant Problems, Abuses, and Deficiencies             19-40,
                                                                                          44-80
                                                                                          13-15,
   Section 5(a)(2)                Recommendations for Corrective Action                   19-40,
                                                                                          44-80

   Section 5(a)(3)             Prior Recommendations Not Yet Implemented                  93-105

                                                                                          44-80,
   Section 5(a)(4)               Matters Referred to Prosecutive Authorities
                                                                                           107
                        Summary of Instances Where Information Was Unreasonably
   Section 5(a)(5)                                                                         87
                                         Refused or Not Provided

   Section 5(a)(6)    List of OIG Audit and Evaluation Reports Issued During the Period    89

                                                                                          19-40,
   Section 5(a)(7)        Summary of Significant Reports Issued During the Period
                                                                                          44-80
                         Statistical Table on Management Decisions with Respect to
   Section 5(a)(8)                                                                         91
                                               Questioned Costs
                      Statistical Table on Management Decisions on Recommedations
   Section 5(a)(9)                                                                         91
                                       That Funds Be Put To Better Use
                      Summary of Each Audit, Inspection or Evaluation Report Over Six
   Section 5(a)(10)                                                                        87
                      Months Old for Which No Management Decision Has Been Made

   Section 5(a)(11)              Significant Revised Management Decisions                  87

                        Significant Management Decisions with Which the Inspector
   Section 5(a)(12)                                                                        87
                                           General Disagreed
